No.:

In
The Supreme Court of the United States

Montgomery Blair Sibley,
Petitioner,
vs.

Frank Paul Geraci Jr., Mary C. Loewenguth, and
Catherine O'Hagan Wolfe,
Respondents.

On A Petition For Writ Of Certiorari To
The United States Circuit Court for the Second Circuit

Certificate of Compliance for Petition for Writ of Certiorari

Montgomery Blair Sibley
Petitioner
189 Chemung Street
Coming, N.Y. 14830
(607) 301-0967
montybsibley@gmail.com

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari in the above matter contains Fourth Thousand and twenty three (4,023) words,
excluding the parts of the petition that are exempted by Supreme Court Rule 33.1(d).
Pursuant to 28 U. S. C. ยง 1746, I declare under penalty of perjury under the laws of the
United States of America that the foregoing is true and correct.
Executed on

I
Montgomei/ Blairelibley
Petitioner *

